AMTRAK CORPORATE GOVERNANCE:
Implementing a Risk Management Framework is Essential to
Achieving Amtrak’s Strategic Goals




                            Report No. OIG-A-2012-007 | March 30, 2012
      NATIONAL RAILROAD
      PASSENGER CORPORATION
                                                The Inspector General


Memorandum

To:           Thomas C. Carper, Chairman, Board of Directors
              Joseph Boardman, President and CEO



From:         Ted Alves

Date:         March 30, 2012

Subject:      Amtrak Corporate Governance: Implementing a Risk Management Framework is
              Essential to Achieving Amtrak’s Strategic Goals (Report No. OIG-A-2012-007)

Both federal agencies and publicly traded companies have established processes to
manage risk in order to help achieve their strategic goals and objectives. Amtrak’s
Board of Directors plays a key role in ensuring that the company accomplishes its stated
goals in an efficient and effective manner. With the addition of three Board members
since June 2010, the Board now has greater capacity to fulfill its governance
responsibilities for Amtrak programs and operations. To better understand the
company’s approach to managing risk, the Board asked that we audit Amtrak’s risk
management process. This report provides the results of that audit.

Risk management provides a mechanism to identify and deal with any risk, but focuses
on risks that could prevent a company from reaching its objectives. The enterprise risk
management (ERM) 1 framework is widely used and generally regarded as a best
practice model that organizations can use to deal effectively with potential future events
that can adversely affect company operations, and to ensure that business processes and



1The Committee of Sponsoring Organizations of the Treadway Commission (COSO) published Enterprise
Risk Management—Integrated Framework in September 2004.
                                                                                           2
                           Amtrak Office of Inspector General
      Amtrak Corporate Governance: Implementing a Risk Management Framework
                  is Essential to Achieving Amtrak’s Strategic Goals
                      Report No. OIG-A-2012-007, March 30, 2012



internal controls are operating effectively and efficiently. The key milestones in
developing the current model of an ERM framework are summarized below.

In 1992, the Committee of Sponsoring Organizations of the Treadway Commission
(COSO) published a document entitled “Internal Control—Integrated Framework.” This
document provided a framework for establishing a system of internal controls and
provided evaluation tools that businesses and other entities could use to evaluate their
control systems. The internal control framework consists of five interrelated
components: control environment, risk assessment, control activities,
information/communication, and monitoring.

This 1992 internal control framework was a precursor to COSO’s 2004 Enterprise Risk
Management—Integrated Framework, a roadmap to provide companies with a
methodology for managing risks as well as taking advantage of opportunities to grow
their businesses. That model consists of eight interrelated components: (1) the internal
environment, (2) objective setting, (3) event identification, (4) risk assessment, (5) risk
response, (6) control activities, (7) information and communication, and (8) monitoring.

Our objectives were to (1) determine the extent to which Amtrak manages risk in a
corporate-wide, systematic manner; and (2) identify risk management best practices in
public and private organizations and compare those with Amtrak’s risk management
activities. We used the COSO framework as a best practice to help us accomplish our
objectives. For a detailed discussion of our audit scope and methodology, see
Appendix I.



SUMMARY OF RESULTS
Amtrak currently does not have a formal, coordinated, and systematic enterprise-wide
framework for identifying, analyzing, and managing risk. As our work progressed it
became clear that Amtrak managers and executives do identify and mitigate risks.
However, these efforts are often ad-hoc and narrowly focused on operational or
compliance risks within individual departments. For example, Amtrak senior managers
identify risks within their units based on their experience and knowledge of operations,
and establish controls to address these risks within their units. However, because the
company has not established a risk management process, these risks were not identified
                                                                                                    3
                           Amtrak Office of Inspector General
      Amtrak Corporate Governance: Implementing a Risk Management Framework
                  is Essential to Achieving Amtrak’s Strategic Goals
                      Report No. OIG-A-2012-007, March 30, 2012



using a formal organization-wide methodology. In addition, because Amtrak did not
have a comprehensive risk management process, risk mitigation efforts may not be
adequate to address root causes, and the Chief Executive Officer (CEO) and Board may
not be informed of the risk and mitigation plans.

In discussing the results of our work with Amtrak senior executives, they agreed with
the need to improve their risk management practices. The company then took initial
steps toward addressing this issue by committing—in the October 1, 2011, Strategic
Plan—to establish an ERM framework that is based on industry best practices. This is an
important first step and shows a proactive approach on the company’s part.

Recognizing this commitment, we focused on identifying best practices that could be
adopted by the company. Our audit work noted that one of the keys to success for some
organizations was to build a comprehensive ERM process using incremental steps,
rather than starting with enterprise-wide effort. Given the ad-hoc nature of Amtrak’s
current risk management practices and control activities, it appears that an incremental
approach could provide the greatest likelihood for implementation success. Further,
focusing that approach on the ongoing implementation of a selected goal within the
Strategic Plan could be a logical start to the implementation of an ERM framework.

Based on our judgment, together with input from Amtrak’s senior executives, we
believe that Amtrak should begin the ERM process by applying its principles to Goal 5
of the Strategic Plan—Financial and Organizational Excellence. This goal has three key
advantages as a starting point for implementing an ERM framework:

•   The goal relates to the entire organization and therefore would introduce and apply
    the ERM framework Amtrak-wide. This is a significant step that would help lay the
    foundation for broader implementation of the ERM framework over time.

•   The goal addresses financial performance and overall business results. These are key
    areas at the heart of what an ERM framework is designed to help a company
    achieve. Further, improvements in these areas link directly to the overall goals of the
    Passenger Rail Investment and Improvement Act of 2008. 2 To the extent that ERM


2The Passenger Rail Investment and Improvement Act authorized nearly $10 billion for Fiscal Years
2009–2013 for Amtrak’s operating costs and capital investments, including actions to help Amtrak
improve financial management, operate more efficiently, and improve services on existing routes.
                                                                                             4
                           Amtrak Office of Inspector General
      Amtrak Corporate Governance: Implementing a Risk Management Framework
                  is Essential to Achieving Amtrak’s Strategic Goals
                      Report No. OIG-A-2012-007, March 30, 2012



    helps achieve this strategic goal, it would also help achieve the act’s goal of making
    Amtrak less dependent on federal subsidies.

•   Amtrak has weaknesses in its business processes and internal controls. Focusing on
    Goal 5 will result in an in-depth analysis of financial and operational controls with
    the objective of ensuring that they effectively and efficiently support improved
    business processes and financial performance.

We recommend that the Board of Directors and the President and CEO take the
following actions:

1. In the long term, develop and implement an ERM process for the entire organization
   to include the Board of Directors, which is consistent with the COSO framework.
2. In the near term, using an incremental approach, develop and implement an ERM
   process, to include the Board of Directors, that focuses on Goal 5 of the Amtrak
   Strategic Plan—Financial and Organizational Excellence.

In commenting on a draft of this report, the Chairman of the Board of Directors and the
President and CEO stated that it is imperative that the Board discuss our
recommendations with an answer to the time, resources, and priority needed to make a
commitment. Once the Board has had an opportunity to understand the commitment
this will take, guidance will be provided to management, and the company will provide
the Office of the Inspector General with more detailed information about Amtrak’s plan
to implement ERM. The full response to our draft report can be found in Appendix IV.

The company’s response is consistent with the intent of our recommendations and
reflects the incremental approach we are recommending to address the ERM issue. We
will periodically follow up on the Company’s implementation efforts.


AMTRAK’S PRESENT APPROACH TO MANAGING RISK IS
AD-HOC, BUT IT HAS COMMITTED TO A FORMAL PROCESS
Amtrak does not currently have a formal, coordinated, systematic, enterprise-wide
framework for identifying, analyzing, and managing risks. Amtrak does have some risk
management activities in place, however these activities are often on an ad-hoc basis,
and are narrowly focused on operational or compliance risks within a single operating
                                                                                                     5
                           Amtrak Office of Inspector General
      Amtrak Corporate Governance: Implementing a Risk Management Framework
                  is Essential to Achieving Amtrak’s Strategic Goals
                      Report No. OIG-A-2012-007, March 30, 2012



unit. In addition, because Amtrak does not have a comprehensive risk management
process, risk mitigation actions may not be adequate to address root causes, and the
CEO and Board may not be informed of the risk and mitigation plans. 3

In discussing our observations with Amtrak senior executives, they acknowledged the
need to improve their risk management practices. Amtrak’s October 2011 Strategic Plan
took initial steps toward that goal by committing to establishing an enterprise risk
management framework based on industry best practices. This is an important first step
and shows a proactive approach on the company’s part to address this issue.

Amtrak’s Current Risk Activities Yield Some Risk Mitigation Results
While Amtrak did apply certain aspects of the risk management components, this was
done in an ad-hoc manner, without any company-wide policy or process to provide
guidance and consistency. Figure 1 illustrates the stovepiped nature of Amtrak’s
current risk management process—that is, each unit addresses risk, for the most part,
within that unit alone and not across the organization.




3 There are no statutory or legal requirements for the vast majority of private companies, including
Amtrak, to implement ERM or, for instance, to form risk committees under the Board of Directors. The
corporate environment outside of Amtrak has seen the emergence of a few laws or regulations that have
ERM mandates or characteristics for some publicly traded corporations. See, for example, the Dodd-
Frank Wall Street Reform and Consumer Protection Act (Pub. L. 111-203 2010); the Sarbanes-Oxley Act of
2002 (Pub. L. 107-204); and the Securities and Exchange Commission Release 33-9089 (Feb. 28, 2010) and
Item 407 of Regulation S-K, 17 CFR 229.400.
                                                                                                   6
                            Amtrak Office of Inspector General
       Amtrak Corporate Governance: Implementing a Risk Management Framework
                   is Essential to Achieving Amtrak’s Strategic Goals
                       Report No. OIG-A-2012-007, March 30, 2012




                      Figure 1. Amtrak’s Traditional, Stovepiped
                             Risk Management Approach




Source: Amtrak Office of Inspector General (OIG)



As discussed below, we analyzed the risk management processes in Amtrak
organizational units as they relate to four COSO ERM components—risk identification,
objective setting, risk response, and control activities. Amtrak’s current risk
management practices do not reflect an entity-wide management of risk, yet they do
result in actions that mitigate certain risks and provide a good starting point for
establishing a more comprehensive risk management program.

Specifically:
Risk Identification Component.              Currently, risk identification is performed on an ad-
                                            hoc basis and is limited because risk is identified on a
Risk Identification - According to          unit-by-unit basis and not across the entire
COSO, the risk identification               organization. Each of Amtrak’s organizational senior
component involves the                      managers provided us with a list of risks they have
identification of potential events
affecting achievement of an
organization’s strategic objectives.
                                                                                           7
                           Amtrak Office of Inspector General
      Amtrak Corporate Governance: Implementing a Risk Management Framework
                  is Essential to Achieving Amtrak’s Strategic Goals
                      Report No. OIG-A-2012-007, March 30, 2012



identified from their day-to-day operations; for example:

•   Information technology (IT) systems and processes are not fully documented to ensure
    that they are working properly (IT)
•   Losses occur due to employee theft (Transportation)
•   Expertise could be lost due to a substantial number of retirements (Engineering,
    Transportation, Human Resources, Policy and Development, and Chief Financial
    Officer)
•   Performance of adequate maintenance is hindered due to obsolete material and
    technology (Mechanical)
•   Customer expectations may not be met due to difficulties in upgrading current
    equipment while minimizing costs (Mechanical)
•   Terrorism and criminal acts may be directed toward Amtrak passengers, employees,
    and property (Amtrak Police Department, Finance)
•   Individual departments may be addressing the same risks independently, raising the
    concern that more funds than necessary will be spent to address the same problem
    (Chief Financial Officer)
•   Amtrak may not be maximizing its revenue through management of its ridership
    capacity by adjusting pricing in response to market demand (Marketing)


                                                  Objective Setting Component. Amtrak issued
  Objectives-Setting—Strategic objectives are     a new Strategic Plan in October 2011. The
  high-level goals that are aligned with the      plan is a good step forward given that
  organization’s mission; they should establish a Amtrak did not have one for years and was
  basis for operational effectiveness, reliable
                                                  slow to respond to recommendations to
  financial reporting, and compliance with laws
                                                  develop one. The plan contains
  and regulations. To add assurance that a
                                                  organization-wide objectives and is
  company will achieve its strategic objectives,
  management should identify risks and consider   intended to provide a compass by which
  their implications.                             all business decisions will be made. It
                                                  contains a vision statement, corporate
goals, performance targets, and proposed strategic activities. In addition, the plan
includes seven corporate strategies that align with one or more corporate goals.
                                                                                             8
                           Amtrak Office of Inspector General
      Amtrak Corporate Governance: Implementing a Risk Management Framework
                  is Essential to Achieving Amtrak’s Strategic Goals
                      Report No. OIG-A-2012-007, March 30, 2012



The Strategic Plan further identifies potential risks categorized as internal and external
factors that may have a negative impact on future performance and prevent the
company from reaching its goals. The plan also links strategies to goals, but it does not
link the strategies to risks, nor does it describe how these risks could affect the
achievement of the objectives or the manner in which Amtrak plans to mitigate them.
Linking risks to strategic objectives helps identify and prioritize the most important
risks that could prevent the achievement of those objectives.

For example, one of Amtrak’s corporate strategies is to identify and invest in systems
and technologies that will simultaneously reduce energy usage and operating expenses.
This strategy aligns with two goals, financial and organizational excellence and environment
and energy. Performance against this strategy includes measurements of a reduction in
total diesel fuel consumption per seat mile, a reduction in locomotive electric
consumption, and a reduction in station electrical use. In a memorandum transmitting
the Strategic Plan, Amtrak’s President and CEO stated that the company plans to
develop tactical plans to guide its business units. However, it lacks a formal process to
identify, discuss, or describe actions to address and manage the internal or external
factors (risks) that may have a negative impact on Amtrak’s ability to achieve its
objectives.

                                                  Risk Response Component. Amtrak‘s
 Risk Response - According to the COSO            operational units have developed risk
 framework, responding to risks on an             responses in several areas that Amtrak can
 organization-wide basis ensures that             build on as it begins to develop and
 appropriate safeguards are put in place to       implement a risk management framework.
 mitigate problems that could negatively affect
                                                  While some organizational units have
 the company either financially or
                                                  developed risk responses to individual
 operationally. Once risks have been
 identified, management must determine the
                                                  risks, Amtrak has not addressed the
 courses of action the organization should take   implications of these risks on an
 to address them. Management’s risk               organization-wide basis. For example, some
 responses can be grouped into four categories-   of the risks identified by Amtrak senior
 - avoidance, reduction, sharing, and             executives included the following:
 acceptance.
                                           •     IT systems and procedures are not
    fully documented to ensure that they are working properly.
•   Expertise could be lost due to a substantial number of retirements.
                                                                                            9
                             Amtrak Office of Inspector General
        Amtrak Corporate Governance: Implementing a Risk Management Framework
                    is Essential to Achieving Amtrak’s Strategic Goals
                        Report No. OIG-A-2012-007, March 30, 2012



•     Performance of adequate maintenance is hindered due to obsolete material and
      technology.
•     Customer expectations may not be met due to difficulties in upgrading current
      equipment while minimizing costs.

However, while the risks were identified by each unit, they were not assessed
collectively by the senior executives to consider such issues as their relative priority,
adequacy of mitigation plans, and whether sufficient resources were being applied to
address them. Further, they were not presented at the Board level in a structured
manner so the Board could make its assessment of risk, mitigation plans, and resource
adequacy. This leaves the company vulnerable to identified risks not being adequately
addressed or other risks not being identified.

                                      Control Activities Component. Some units within
    Control Activities - According to the
                                      Amtrak have control activities to address risks
    COSO framework, control activities are
                                      that the units have identified. Amtrak in general
    the policies and procedures that
                                      lacks an organization-wide system of internal
    implement management’s decisions on
                                      controls that provides reasonable assurance that
    what actions to take to mitigate risks and
                                      the operations are being carried out in an
    help to assure the effectiveness and
                                      effective and efficient manner. The examples
    efficiency of operations, reliability of
                                      below demonstrate that, currently, some risks
    financial reporting, and compliance with
                                      are addressed within operational units but not
    applicable laws and regulations. Control
    activities are similar to internal controls.
                                      on an organization-wide basis. These examples
                                      of control activities implemented by Amtrak
operating departments and offices are based on their initiative or in response to our
prior audit or review recommendations.

•     The Environmental Health and Safety Department conducts audits to monitor its
      performance against its regulatory requirements and internal policies, and to
      address any deficiencies. These audits are part of Amtrak’s primary processes for
      monitoring and measuring environmental performance and reporting the status to
      specific Amtrak stakeholders.

•     Amtrak’s Transportation Department has taken action to improve the economy,
      efficiency, and internal controls of on-board food and beverage service. For
      example, Amtrak has established a centralized system to help automate the
                                                                                                   10
                              Amtrak Office of Inspector General
         Amtrak Corporate Governance: Implementing a Risk Management Framework
                     is Essential to Achieving Amtrak’s Strategic Goals
                         Report No. OIG-A-2012-007, March 30, 2012



        collection of revenue shortages, restructured staffing for dining cars to reduce labor
        costs, introduced seat-cart service for selected high-traffic routes to improve cost
        recovery, and introduced on-board electronic credit card technology to increase
        sales.

    •   Treasury Risk Management within the Finance Department reviews contracts with
        other organizations to ensure that Amtrak assumes the minimum amount of risk
        possible. The unit also assesses the potential liability for risks for which Amtrak
        decides to self-insure, such as property or personal injury damages.

    •   The Office of General Counsel provides advice to other Amtrak units to ensure that
        these units are in compliance with various laws and regulations. The primary
        purpose of these efforts is to protect Amtrak from the financial consequences of
        noncompliance with laws and regulations.
On the other hand, as some of our recent reports have shown, significant gaps exist in
Amtrak’s controls. For example, we reported that:

    •   Control weaknesses existed in human resources management related to planning
        for future needs, hiring and retaining staff, and the IT systems used to support
        human resources. Further, many of the recommendations made in previous reports
        had not been implemented. Amtrak’s not identifying human capital as a risk and
        placing appropriate emphasis on it could result in the lack of requisite knowledge,
        skills, and experience among the company’s key personnel that may threaten
        effective operation of the business. Amtrak management responded that it would
        reemphasize its commitment to addressing our findings and that the Chief Human
        Capital Officer would analyze our report and develop an action plan for addressing
        the open recommendations. 4

    •   Amtrak had longstanding weaknesses in controls, processes, and resources for
        reviewing invoices for on-time-performance payments, resulting in overpayments
        of $37 million to host railroads. Amtrak’s lack of an adequate process to verify the


4Amtrak OIG reports Human Capital Management (OIG Report No. E-09-03, May 15, 2009) and Human
Capital Management: Lack of Priority Has Slowed OIG-Recommended Actions to Improve Human Capital
Management, Training, and Employee Development Practices (OIG Report No. E-11-04, July 8, 2011).
                                                                                                        11
                              Amtrak Office of Inspector General
         Amtrak Corporate Governance: Implementing a Risk Management Framework
                     is Essential to Achieving Amtrak’s Strategic Goals
                         Report No. OIG-A-2012-007, March 30, 2012



        accuracy of payments made to host railroads creates the risk that assets (cash) are
        not being safeguarded, and that profits are not being achieved. Amtrak agreed and
        is taking action to apply additional resources and establish a process to thoroughly
        review invoices for on-time-performance incentives and other costs before making
        payments. 5

    •   Amtrak provides food and beverage service on board most of its trains. But long-
        standing internal control weaknesses and gaps continue to make on-board food and
        beverage revenues and inventories vulnerable to fraud, waste, and abuse. We
        estimated that $4 million to $7 million of Amtrak’s food and beverage sales could
        be at risk of theft unless these control risks are effectively mitigated. Amtrak
        management agreed with our recommendations and outlined an implementation
        plan to address these internal control weaknesses. 6

    •   Amtrak did not meet the requirement to make all stations accessible to persons
        with disabilities by July 26, 2010. It is important that Amtrak address the Americans
        with Disabilities Act (ADA) organizational deficiencies because they increase the
        risk that funds will not be used efficiently and effectively and that Amtrak will not
        meet its goal of being ADA-compliant by September 30, 2015. In addition, Amtrak's
        current and ongoing lack of ADA compliance creates a potentially significant
        financial liability risk resulting from legal judgments for not being ADA-compliant
        and detracts from its strategic goals of improving safety and customer service for
        all of its passengers. Amtrak management agreed with our recommendations to
        develop a detailed spending plan to support the Fiscal Year 2012 ADA budget
        request, and provide Congress with an order-of-magnitude cost estimate for
        completing all ADA programs by September 30, 2015. 7



5 Amtrak OIG reports BNSF On-Time Performance Incentives: Inaccurate Invoices and Lack of Amtrak
Management Review Lead to Overpayments (OIG Audit Report No. 407-2003, September 24, 2010), On-Time-
Performance Incentives: Inaccurate Invoices Were Paid Due to Long-standing Weaknesses in Amtrak’s Invoice-
Review Process (OIG Audit Report No. 403-2010, April 21, 2011), and Amtrak Invoice-Review: Inaccurate
Invoices Were Paid, But Progress is Being Made to Improve the Invoice-Review Process (OIG Report No. OIG-A-
2012-005, February 16, 2012).
6 Food and Beverage Service: Further Actions Needed to Address Revenue Losses Due to Control Weaknesses and

Gaps (OIG Report No. E-11-03, June 23, 2011).
7 Americans with Disabilities Act: Leadership Needed to Help Ensure That Stations Served by Amtrak Are
                                                                                                        12
                            Amtrak Office of Inspector General
       Amtrak Corporate Governance: Implementing a Risk Management Framework
                   is Essential to Achieving Amtrak’s Strategic Goals
                       Report No. OIG-A-2012-007, March 30, 2012




Amtrak Is Committed to Developing a Risk Management Framework
Amtrak’s October 2011 Strategic Plan cited the need to develop a systematic enterprise-
wide risk management process. Specifically, the Strategic Plan noted:

      Several challenges to Amtrak’s success have been identified in this strategic plan.
      These enterprise risks require management attention, planning and remediation as
      set forth in this plan and elsewhere. To do so, Amtrak will establish an enterprise
      risk management framework that is based on industry best practices. This
      framework will be used to routinely assess the corporation and all business lines
      while developing a system of control.


BEST PRACTICE APPROACH FOR IMPLEMENTING ERM AT
AMTRAK
Recognizing that the company has committed to implementing an effective risk
management process, we shifted the focus of our work to identifying best practices that
Amtrak could adopt. (See Appendix II for a description of best practices and Appendix
III for additional sources of ERM information.) There are various ways to implement an
ERM program, ranging from a corporate-wide approach to one of more limited scope,
such as focusing on specific risks. A COSO thought paper 8 described how an
organization can start to move from informal risk management to ERM. One of the keys
to success identified by COSO was building ERM in incremental steps. Given the ad-
hoc nature of Amtrak’s current risk management processes, it appears that the
incremental approach provides the greatest likelihood for implementation success.
Further, linking that approach to the ongoing implementation of the Strategic Plan also
appears to be the most logical approach to start the implementation of an ERM
framework.




Compliant (OIG Audit Report 109-2010, September 29, 2011).
8
  Embracing Enterprise Risk Management, Practical Approaches for Getting Started, COSO, January 2011.
                                                                                            13
                           Amtrak Office of Inspector General
      Amtrak Corporate Governance: Implementing a Risk Management Framework
                  is Essential to Achieving Amtrak’s Strategic Goals
                      Report No. OIG-A-2012-007, March 30, 2012



Incremental Approach Is a Recommended Best Practice
Organizations have achieved ERM successes by taking an incremental, step-by-step
approach to enhancing their risk management capabilities to provide a more enterprise-
wide view over time, rather than undertaking one massive launch effort. They start
with a simple process and build from there using incremental steps rather than trying to
make a quantum leap to fully implement a complete ERM process. The COSO thought
paper and our audit work also identified the following strategies for starting an ERM
program:

Board and Senior Management Leadership, Involvement, and Oversight. Support from the
Board of Directors and senior management is needed to get the right focus, resources,
and attention for ERM. Directors need to demonstrate clear support for the initiative as
well as overseeing what management has designed and implemented to manage top
risk exposure. The Board and senior management set the tone for the organization’s risk
culture. Their involvement, leadership, and oversight are essential for ERM.

A Strong Leader to Drive the ERM Initiative. Finding a leader to head the initial ERM
project is critical for success. Management should identify a leader with the right
attributes to head this undertaking, such as having a broad knowledge of the business
and its core strategies, strong relationships with directors and executive management,
strong communication and facilitation skills, knowledge of the organization’s risks, and
broad acceptance and credibility across the organization. This leader will not
necessarily be the person to head ERM in the long term, but the person to get the
initiative started and to take responsibility for moving the organization’s ERM initiative
to the next level. The Board should be comfortable that management has put in place an
effective ERM leader who is widely respected across the organization and who has
accepted responsibility for overall ERM leadership.

Build on Existing Risk Management Activities. Amtrak has some informal risk
management activities in place and can leverage and enhance these activities to move
toward a more complete ERM program. For example, senior leaders use informal
processes to identify risks. Amtrak’s risk identification process could be improved by
adding structure to this process to ensure that all risks have been identified, including
emerging risks. The next steps in the process would include prioritizing the risks for
probability and consequence, ensuring that appropriate mitigating processes are in
                                                                                            14
                           Amtrak Office of Inspector General
      Amtrak Corporate Governance: Implementing a Risk Management Framework
                  is Essential to Achieving Amtrak’s Strategic Goals
                      Report No. OIG-A-2012-007, March 30, 2012



place to manage them, regularly reviewing the effectiveness of the management of the
risks, and periodically reporting to the CEO and the Board on risk management.

Leverage Existing Resources. Many organizations have successfully entered the ERM
arena by leveraging their existing risk management resources. Organizations often
discover that they have the personnel on their existing staffs with the knowledge and
capabilities relating to risks and risk management that can be effectively used as a start.
For example, some organizations have appointed a management committee, sometimes
headed by their Chief Financial Officer, to bring together a wide array of personnel
from across the entity that collectively have sufficient knowledge of the organization’s
core business model and related risks and risk management practices to get ERM
moving. Outside expert support can also be a useful way to leverage existing resources.

Continuing ERM Implementation. Given the evolutionary nature of ERM and the
dynamic nature of risk, the process must be ongoing and not viewed as a one-time
event. The initial risk assessment process will need periodic updating, and Amtrak will
need to be attuned to the need to identify new, emerging risks. In addition, risk
mitigation activities, which generally consist of improving business processes and
controls, are an ongoing effort. Once the initial ERM process is operationalized, Amtrak
should look for additional ways to expand implementation across the organization.
Amtrak’s risk management leaders need to continue to drive further development and
maturity of the risk management processes.

Based on our analysis of Amtrak’s risk management activities and the ERM process, we
believe that an incremental approach to establishing an ERM process best fits Amtrak,
given the company’s current risk identification practices and weak internal control
environment. Further, based on our judgment, together with input from Amtrak’s
senior executives, we believe that applying the ERM principles to Goal 5 of the Strategic
Plan would be advantageous. Goal 5 of the plan states:

     Goal 5—Financial and Organizational Excellence: Attain a standard of
     organizational excellence by aligning our products, services, processes, and culture
     with stakeholder expectations to improve financial performance and overall business
     results.
                                                                                                 15
                           Amtrak Office of Inspector General
      Amtrak Corporate Governance: Implementing a Risk Management Framework
                  is Essential to Achieving Amtrak’s Strategic Goals
                      Report No. OIG-A-2012-007, March 30, 2012



While we recognize the importance of the other strategic goals, we believe that attaining
financial and organizational excellence has three key advantages as a starting point for
implementing an ERM framework. Specifically:

•   First, the goal relates to the entire organization and therefore would introduce and
    apply the ERM framework Amtrak-wide. This is a significant step that would help
    lay the foundation for broader implementation of the ERM framework over time.

•   Second, the goal addresses financial performance and overall business results. These
    are key areas that are at the heart of what an ERM framework is designed to help a
    company achieve. Further, improvements in these areas link directly to the overall
    goals of the Passenger Rail Investment and Improvement Act of 2008. To the extent
    that ERM is successful in helping to achieve this strategic goal, it would also help to
    achieve the act’s goal of making Amtrak less dependent on federal subsidies.

•   Third, as previously discussed, Amtrak has weaknesses in its business processes and
    internal controls. Focusing on Goal 5 will result in an in-depth analysis of financial
    and operational controls with the objective of ensuring that they effectively and
    efficiently support improved business processes and financial performance.

It is also important to note that while implementation will largely be carried out by the
company’s management team, the Board of Directors, given its fiduciary responsibility
to represent stakeholders, plays a critical role in ERM as presented by COSO:

       “An entity’s board of directors plays a critical role in overseeing an enterprise-
       wide approach to risk management. Because management is accountable to the
       board of directors, the board’s focus on effective oversight is critical to setting the
       tone and culture towards effective risk management through strategy setting,
       formulating high level objectives, and approving broad-based resource
       allocations.”

Currently, because the company has not established a disciplined risk management
process, the Board’s ability to oversee risks is limited. Our meetings with Amtrak Board
members disclosed that they were not sure whether they were aware of all major risks
facing Amtrak or the adequacy of the mitigation actions to address those risks. Many of
the members supported a more structured risk management process. Further, the
                                                                                         16
                           Amtrak Office of Inspector General
      Amtrak Corporate Governance: Implementing a Risk Management Framework
                  is Essential to Achieving Amtrak’s Strategic Goals
                      Report No. OIG-A-2012-007, March 30, 2012



Board’s ability to oversee risks was also limited because it was not operating with full
Board membership. With the addition of three new Board members since June 2010,
Amtrak now has seven of nine members authorized by the Passenger Rail Investment
and Improvement Act of 2008. As a result, the Board of Directors has been able to
reconstitute two Board committees: the Audit and Finance Committee and the
Personnel Committee. With this added leadership, the Board has greater capacity to
fulfill its governance responsibilities over Amtrak programs and operations. There are
various ways a Board can choose to implement its leadership role, to include

•   providing clear support for ERM to ensure that the right focus, resources, and
    attention are applied;
•   overseeing management’s design and implementation of the ERM program;
•   overseeing development of and participation in enterprise-wide strategy analysis;
•   knowing the extent to which management has established an effective ERM
    program; and
•   understanding the most significant risks and whether management is responding
    appropriately.




CONCLUSIONS
Amtrak can benefit in terms of improved service and cost effectiveness of operations by
better managing risk. The company is to be commended for taking a proactive approach
by committing to instituting a risk management process. Taking action shows a desire
to focus on the costs and benefits of its risk management activities.

There is no one set model for starting an ERM program, but it is generally agreed that
an incremental approach that is tailored to the organization’s culture and capacity to
absorb change works best. Amtrak is working to realign the organization with its
strategic plan and at the same time recognizes that its business process control
environment is weak. Consequently, linking its incremental implementation strategy
with one important strategic plan goal appears to be a logical approach that would
enhance the likelihood of a successful implementation. Starting the ERM process with
Goal 5 of the Strategic Plan introduces the ERM framework to the entire organization,
                                                                                        17
                          Amtrak Office of Inspector General
     Amtrak Corporate Governance: Implementing a Risk Management Framework
                 is Essential to Achieving Amtrak’s Strategic Goals
                     Report No. OIG-A-2012-007, March 30, 2012



focuses the ERM process on areas of critical need, and adds assurance that financial and
organizational internal controls are operating effectively and efficiently.



RECOMMENDATIONS
In order to better and more systematically manage risk, we recommend that the Amtrak
Board of Directors and President and CEO take action to:

1. In the long term, develop and implement an ERM process for the entire
   organization, to include the Board of Directors, which is consistent with the COSO
   framework.

2. In the near term, using an incremental approach, develop and implement an ERM
   process to include the Board of Directors that focuses on Goal 5 of the Amtrak
   Strategic Plan, Financial and Organizational Excellence.




MANAGEMENT COMMENTS AND OIG RESPONSE
In commenting on a draft of this report, Amtrak’s Chairman, Board of Directors, and
the President and CEO stated that they plan to implement ERM. They indicated that
developing a formal ERM program is a complex undertaking and that this is an issue
the Board of Directors considers to be extremely important for Amtrak’s future success.
They also commented that it is imperative that the Board discuss our recommendations
with an answer to the time, resources, and priority needed to make a commitment.
They added that, once the Board has had an opportunity to understand the
commitment this will take, guidance will be provided to management, and the
company will provide to the OIG more detailed information about their plan to
implement ERM. Amtrak’s complete comments appear as Appendix IV.

We believe the response by the Chairman and the President and CEO is consistent with
the intent of our recommendations and reflects the need to take an incremental
approach to implementing an ERM program. We also agree with the approach being
taken by the Board of Directors to better understand the commitment this effort will
require before taking its next steps. We look forward to receiving detailed information
                                                                                18
                          Amtrak Office of Inspector General
     Amtrak Corporate Governance: Implementing a Risk Management Framework
                 is Essential to Achieving Amtrak’s Strategic Goals
                     Report No. OIG-A-2012-007, March 30, 2012



about Amtrak’s plan to implement ERM. We will periodically follow up on the
company’s progress in implementing our recommendations and report separately at the
appropriate time.
                                                                                       19
                          Amtrak Office of Inspector General
     Amtrak Corporate Governance: Implementing a Risk Management Framework
                 is Essential to Achieving Amtrak’s Strategic Goals
                     Report No. OIG-A-2012-007, March 30, 2012



                                      Appendix I

                      SCOPE AND METHODOLOGY

Our objectives were to (1) determine the extent to which Amtrak manages risks in a
corporate-wide systematic manner, and (2) identify risk management best practices in
public and private organizations and compare those to Amtrak’s risk management
activities. We performed our audit work from May, 2011 through January 2012.

We interviewed eight Board members including Amtrak’s President and CEO, 16
senior executives managing all aspects of Amtrak’s operations and three management
staff to determine whether Amtrak manages risk in a corporate-wide, systematic
manner. We discussed with these senior executives the key risks faced by their
departments, or Amtrak as a whole, and whether these risks are addressed on a
corporate-wide, systematic basis or documented in corporate policies. We also reviewed
Board of Directors’ briefing documents and minutes of Board meetings to determine the
extent to which risks are discussed with the Board.

We documented the extent to which Amtrak has implemented a risk management
framework and processes, and compared Amtrak’s framework and processes to the
Committee of Sponsoring Organizations of the Treadway Commission (COSO)
framework. We reviewed best practices implemented by other organizations. We also
analyzed selected previous OIG reports to identify weaknesses in Amtrak’s business
processes and internal controls.

In addition to analyzing the COSO framework, we reviewed materials related to
Enterprise Risk Management (ERM) from a number of sources, including the American
Institute of Certified Public Accountants, the Institute of Internal Auditors, and
PricewaterhouseCoopers.

To identify industry best practices, we researched and identified both public and
private organizations that have established an ERM process for identifying, assessing,
and mitigating risks. We identified 12 public and private organizations that already
have or are in the process of establishing an ERM program and identified best practices
that could assist Amtrak in developing its own ERM program. These organizations
included nine federal agencies, one freight railroad company, one port authority, and
                                                                                         20
                           Amtrak Office of Inspector General
      Amtrak Corporate Governance: Implementing a Risk Management Framework
                  is Essential to Achieving Amtrak’s Strategic Goals
                      Report No. OIG-A-2012-007, March 30, 2012



one state university. We also identified and analyzed publications, articles, or
documents relating to risk management that may be useful to Amtrak Management in
establishing its Risk Management program. This search resulted in the identification of
27 publications or articles on Risk Management. These publications and articles are
listed in Appendix III of this report.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Internal Controls
Our audit reviewed the activities used by Amtrak management to identify and manage
risks. This included assessing Amtrak’s risk identification, assessment, and mitigation
practices, and management information used in Amtrak’s risk management activities.
We did not assess or test these controls. We also relied on our prior audits to generally
comment on the overall condition of the Company’s internal controls.

Computer-Processed Data
Due to the nature of the audit objectives and the audit methodology, we did not rely on
computer processed data during the audit.

Prior Coverage
We reviewed the following audit reports and used information from those reports in
conducting our analysis of issues:

Amtrak Invoice-Review: Inaccurate Invoices Were Paid, But Progress is Being Made to Improve
the Invoice-Review Process (OIG Report No. OIG-A-2012-005, February 16, 2012)

On-Time Performance Incentives: Inaccurate Invoices Were Paid Due to Weaknesses in
Amtrak’s Invoice-Review Process (OIG Audit Report No. OIG-A-2012-004, February 15,
2012)
                                                                                            21
                           Amtrak Office of Inspector General
      Amtrak Corporate Governance: Implementing a Risk Management Framework
                  is Essential to Achieving Amtrak’s Strategic Goals
                      Report No. OIG-A-2012-007, March 30, 2012



Americans with Disabilities Act: Leadership Needed to Help Ensure That Stations Served by
Amtrak Are Compliant (OIG Audit Report No. 109-210, September 29, 2011)

Human Capital Management: Lack of Priority Has Slowed OIG-Recommended Actions to
Improve Human Capital Management, Training, and Employee Development Practices (OIG
Report No. E-11-04, July 8, 2011)

Food and Beverage Service: Further Actions Needed to Address Revenue Losses Due to Control
Weaknesses and Gaps (OIG Report No. E-11-03, June 23, 2011)

On-Time Performance Incentives: Inaccurate Invoices Were Paid Due to Long-standing
Weaknesses in Amtrak’s Invoice-Review Process (OIG Audit Report No. 403-2010, April 21,
2011)

BNSF On-Time Performance Incentives: Inaccurate Invoices and Lack of Amtrak Management
Review Lead to Overpayments (OIG Audit Report No. 407-2003, September 24, 2010)

Human Capital Management (OIG Report E-09-03, May 15, 2009)

Amtrak Management: Systemic Problems Require Actions to Improve Efficiency, Effectiveness,
and Accountability (GAO-06-145, October 4, 2005) [Government Accountability Office]
                                                                                                22
                            Amtrak Office of Inspector General
       Amtrak Corporate Governance: Implementing a Risk Management Framework
                   is Essential to Achieving Amtrak’s Strategic Goals
                       Report No. OIG-A-2012-007, March 30, 2012




                                              Appendix II

      KEY PRINCIPLES OF ENTERPRISE RISK MANAGEMENT
        COMPONENTS AND INDUSTRY BEST PRACTICES

This appendix presents key principles inherent in the eight ERM components that were
included in the Committee of Sponsoring Organizations’ (COSO) publication Enterprise
Risk Management—Integrated Framework, and industry best practices we identified
during our audit.

Component 1: Internal Environment
  Risk Management Philosophy

  •   The entity's risk management philosophy represents the shared beliefs and
      attitudes characterizing how the entity considers risk in all activities.

                                                        •    It reflects the entity’s values,
Internal Environment Best Practices                   influencing its culture and operating
                                                      style.
 The Board of Directors and senior management
  set the tone for the organization’s risk culture;
  establish a risk-related committee at the board
                                                        •    It affects how enterprise risk
  level.                                              management components are applied,
                                                      including how events are identified, the
 Produce a strategy statement that clarifies risk
                                                      kinds of risks accepted, and how they are
  appetite, risk ownership, and the strategy to be
                                                      managed.
  used to identify and assess key risks.
 Create a new executive role, such as a Chief Risk     •     It is well developed, understood,
  Officer and Risk Office, with the responsibility
                                                      and embraced by the entity's personnel.
  across the entire organization for risk
                                                      It is captured in policy statements, oral
  management.
                                                      and written communications, and
                                                      decision- making.
                                                                                        23
                         Amtrak Office of Inspector General
    Amtrak Corporate Governance: Implementing a Risk Management Framework
                is Essential to Achieving Amtrak’s Strategic Goals
                    Report No. OIG-A-2012-007, March 30, 2012



•   Management reinforces the philosophy not only with words but also with
    everyday actions.

Risk Appetite

•   The entity's risk appetite reflects the entity's risk management philosophy and
    influences the culture and operating style.

•   It is considered in strategy-setting, with strategy aligned with risk appetite.


Board of Directors

•   The Board is active and possesses an appropriate degree of management,
    technical, and other expertise, coupled with the mindset necessary to perform its
    oversight responsibilities.

•   It is prepared to question and scrutinize management's activities, present
    alternative views, and act in the face of wrongdoing.

•   It has at least a majority of independent outside directors.

•   It provides oversight to enterprise risk management and is aware of and concurs
    with the entity's risk appetite.


Integrity and Ethical Values

•   The entity's standards of behavior reflect integrity and ethical values.

•   Ethical values not only are communicated but also accompanied by explicit
    guidance regarding what is right and wrong.

•   Integrity and ethical values are communicated through a formal code of conduct.

•   Upward communications channels exist where employees feel comfortable
    bringing relevant information.
                                                                                      24
                         Amtrak Office of Inspector General
    Amtrak Corporate Governance: Implementing a Risk Management Framework
                is Essential to Achieving Amtrak’s Strategic Goals
                    Report No. OIG-A-2012-007, March 30, 2012




•   Penalties are applied to employees who violate the code of conduct, mechanisms
    encourage employee reporting of suspected violations, and disciplinary actions are
    taken against employees who knowingly fail to report violations.

•   Integrity and ethical values are communicated through management actions and
    the examples they set.


Commitment to Competence

•   Competence of the entity's people reflects the knowledge and skills needed to
    perform assigned tasks.

•   Management aligns competence and cost.


Organizational Structure

•   The organizational structure defines key areas of responsibility and authority.

•   It establishes lines of reporting.

•   It is developed in consideration of the entity's size and nature of activities.

•   It enables effective enterprise risk management.


Assignment of Authority and Responsibility

•   Assignment of authority and responsibility establishes the degree to which
    individuals and teams are authorized and encouraged to use initiative to address
    issues and solve problems, and provides limits to authority.

•   The assignments establish reporting relationships and authorization protocols.
                                                                                                25
                           Amtrak Office of Inspector General
      Amtrak Corporate Governance: Implementing a Risk Management Framework
                  is Essential to Achieving Amtrak’s Strategic Goals
                      Report No. OIG-A-2012-007, March 30, 2012



 •   Policies describe appropriate business practices, knowledge, and experience of key
     personnel, and associated resources.

 •   Individuals know how their actions interrelate and contribute to achievement of
     objectives.

 Human Resource Standards

 •   Standards address hiring, orientation, training, evaluating, counseling, promoting,
     compensation, and remedial actions, driving expected levels of integrity, ethical
     behavior, and competence.

 •   Disciplinary actions send the message that violations of expected behavior will not
     be tolerated.



Component 2: Objective Setting
 Strategic Objectives

 •   The entity's strategic objectives establish high-level goals that align with and
     support its mission and vision.
                                                         •    They reflect management's
Objective Setting Best Practices                       strategic choices as to how the entity
                                                       will seek to create value for its
 Link the ERM process to a company’s strategic
                                                       stakeholders.
  planning process. Use the objectives in the
  strategic plan as a basis for risk identification,
  risk assessment, and risk mitigation activities        •    Management identifies risks
  associated with the strategic plan.                  associated with strategy choices and
                                                       considers their implications.
 Include risk management in the strategic plan.
                                                                                           26
                           Amtrak Office of Inspector General
      Amtrak Corporate Governance: Implementing a Risk Management Framework
                  is Essential to Achieving Amtrak’s Strategic Goals
                      Report No. OIG-A-2012-007, March 30, 2012



Related Objectives

•    Related objectives support and are aligned with selected strategy, relative to all
     entity activities.

•    Each level of objectives is linked to more specific objectives that cascade through
     the organization.

•    The objectives are readily understood and measurable.

• They align with risk appetite.
Selected Objectives

•    Management has a process that aligns strategic objectives with the entity's mission
     and ensures the strategic and related objectives are consistent with the entity's risk
     appetite.

Risk Appetite

•    The entity's risk appetite is a guidepost in strategy-setting.

•    It guides resource allocation.

•    It aligns organization, people, processes, and infrastructure.


Risk Tolerances

•    Risk tolerances are measurable, preferably in the same units as the related
     objectives.

    • They align with risk appetite.
                                                                                                 27
                          Amtrak Office of Inspector General
     Amtrak Corporate Governance: Implementing a Risk Management Framework
                 is Essential to Achieving Amtrak’s Strategic Goals
                     Report No. OIG-A-2012-007, March 30, 2012




Component 3: Risk/Event Identification
                                                               Events
Risk Identification Best Practices
                                                             • Management identifies
 Use a combination of a top down and bottom up           potential events affecting strategy
  approach to identify risks.                             implementation or achievement of
 Once the risks are identified, conduct an executive     objectives that may have positive or
  workshop designed to further understand,                negative impacts.
  evaluate, and prioritize the core business risks in
  the context of the achievement of the strategic             • Even events with a relatively
  plan. Create a risk inventory of all risks facing the   low possibility of occurrence are
  organization, including, strategic, financial,          considered if the impact on achieving
  operational, and regulatory threats.                    an important objective is great.
 Focus on a small number of top risks.


 Influencing Factors

 •   Management recognizes the importance of understanding external and internal
     factors and the type of events that can emanate therefrom.

 •   Events are identified both at the entity and activity levels.


 Event Identification Techniques

 •   Techniques look to both the past and future.

 •   Management selects techniques that fit its risk management philosophy and
     ensure the entity develops needed event-identification capabilities.

 •   Event identification is robust, forming a basis for risk assessment and risk response
     components.
                                                                                         28
                               Amtrak Office of Inspector General
          Amtrak Corporate Governance: Implementing a Risk Management Framework
                      is Essential to Achieving Amtrak’s Strategic Goals
                          Report No. OIG-A-2012-007, March 30, 2012



  Interdependencies

  •       Management understands how events relate to one another.


  Distinguishing Risks and Opportunities

  •       Events with negative impact represent risks, which management assesses and
          responds to.

  •       Events representing opportunities are channeled back to management's strategy or
          objective-setting processes.




Component 4: Risk Assessment
                                                    • In assessing risk, management
Risk Assessment Best Practices                   considers expected and unexpected events.


 Perform an in-depth, prioritized analysis of   Inherent and Residual Risk
  the top three to five risks.
                                                     • Management considers inherent
 Develop a disciplined approach to
  documenting, evaluating, and
                                                 risks.
  communicating risk mitigation.
                                                    • Once risk responses have been
 Develop standardized risk management tools
                                                 developed, management considers inherent
  for assessing risk.
                                                 and residual risks.


  Estimating Likelihood and Impact

      •    Potential events are evaluated from two perspectives—likelihood and impact.

      •    In assessing impact, management normally uses the same, or congruent, unit of
           measure as used for the objective.
                                                                                              29
                                 Amtrak Office of Inspector General
            Amtrak Corporate Governance: Implementing a Risk Management Framework
                        is Essential to Achieving Amtrak’s Strategic Goals
                            Report No. OIG-A-2012-007, March 30, 2012



        •   The time horizon used to assess risks should be consistent with the time horizon
            of the related strategy and objectives.


      Assessment Techniques

        •   Management uses a combination of qualitative and quantitative techniques.

        •   The techniques support development of a composite assessment of risk.


      Relationships between Events

        •   Where correlation exists between events, or events combine and interact,
            management assesses them together.



    Component 5: Risk Response

                                            • In responding to risk, management considers
Risk Response Best Practices             among risk avoidance, reduction, sharing, and
                                         acceptance.
 Develop tools, such as a matrix, to
  assess risk.
                                         Evaluating Possible Responses
 Develop standardized risk
  management tools for assessing risk.      •   Responses are evaluated with the intent of
                                         achieving residual risk aligned with the entity's risk
                                         tolerances.

        •   In evaluating risk responses, management considers their effects on likelihood
            and impact.

        •   Management considers their costs versus benefits, as well as new opportunities.
                                                                                               30
                            Amtrak Office of Inspector General
       Amtrak Corporate Governance: Implementing a Risk Management Framework
                   is Essential to Achieving Amtrak’s Strategic Goals
                       Report No. OIG-A-2012-007, March 30, 2012



 Selected Responses

   •   Responses chosen by management are designed to bring anticipated risk
       likelihood and impact within risk tolerances.

   •   Management considers additional risks that might result from a response.


 Portfolio View

   •   Management considers risk from an entity-wide, or portfolio, perspective.

   •   Management determines whether the entity's residual risk profile is
       commensurate with its overall risk appetite.



Component 6: Control Activities
 Integration with Risk Response

   •   Management identifies control activities needed to help ensure that risk
       responses are carried out properly and in a timely manner.

Control Activities Best Practices                     • Selection or review of control
 For each high-priority risk, the executive      activities includes consideration of their
    management team should identify the risk      relevance and appropriateness to the risk
    owners that will be accountable to identify   response and related objective.
    current processes and controls in place, as
    well as planned initiatives. The team
                                                    • In selecting control activities,
    should develop additional initiatives that
                                                  management considers how they interrelate.
    are needed to close any gaps.



 Types of Control Activities

   •   Management selects from a variety of types of control activities, including
       preventive, detective, manual, computer, and management controls.
                                                                                            31
                             Amtrak Office of Inspector General
        Amtrak Corporate Governance: Implementing a Risk Management Framework
                    is Essential to Achieving Amtrak’s Strategic Goals
                        Report No. OIG-A-2012-007, March 30, 2012




  Policies and Procedures

    •   Policies are implemented thoughtfully, conscientiously, and consistently.

    •   Procedures are carried out with sharp, continuing focus on conditions to which
        the policy is directed.

    •   Conditions identified as a result of the procedure are investigated and
        appropriate corrective actions taken.


  Controls over Information Systems

    •   Appropriate general and application controls are implemented.




Component 7: Information and Communication

                                                 Information
Information and Communication Best
Practices                                           • Relevant information is obtained
                                                 from internal and external sources.
 Communicate openly for risk management to
  succeed.
                                                     • The entity captures and uses
 The Board of Directors and senior
                                                 historical and present data as needed to
  management need to send a message to all
                                                 support effective enterprise risk
  parties about the importance of managing
  risk.
                                                 management.

 Develop communication plans to address
                                                    • The information infrastructure
  issues relating to risks and the risk-
                                                 converts raw data into relevant information
  management process.
                                                 that assists personnel in carrying out their
 Talk substantively about risk at every Board   enterprise risk management and other
  meeting.                                       responsibilities; information is provided at a
                                                 depth and in a form and time frame that are
                                                                                       32
                          Amtrak Office of Inspector General
     Amtrak Corporate Governance: Implementing a Risk Management Framework
                 is Essential to Achieving Amtrak’s Strategic Goals
                     Report No. OIG-A-2012-007, March 30, 2012



     actionable, readily usable, and linked to defined accountabilities—including the
     need to identify, assess, and respond to risk.

 •   Source data and information are reliable and provided on time at the right place
     to enable effective decision-making.

 •   Timeliness of information flow is consistent with the rate of change in the entity's
     internal and external environments.

 •   Information systems change as needed to support new objectives.



Communication

 •   Management provides specific and directed communication addressing
     behavioral expectations and responsibilities of personnel, including a clear
     statement of the entity's risk management philosophy and approach and clear
     delegation of authority.

 •   Communication about processes and procedures aligns with, and underpins, the
     desired culture.

 •   All personnel receive a clear message from top management that enterprise risk
     management must be taken seriously.

 •   Personnel know how their activities relate to the work of others, enabling them
     to recognize problems, determine cause, and take corrective action.

 •   Personnel know what is deemed acceptable and unacceptable behavior.

 •   There are open channels of communication and a willingness to listen, and
     personnel believe their superiors truly want to know about problems and will
     deal with them effectively.
                                                                                             33
                             Amtrak Office of Inspector General
        Amtrak Corporate Governance: Implementing a Risk Management Framework
                    is Essential to Achieving Amtrak’s Strategic Goals
                        Report No. OIG-A-2012-007, March 30, 2012



    •   Communications channels outside normal reporting lines exist, and personnel
        understand there will be no reprisals for reporting relevant information.

    •   An open communications channel exists between top management and the
        Board of Directors, with appropriate information communicated on a timely
        basis.

    •   Open external communications channels exist, where customers and suppliers
        can provide significant input.

    •   The entity communicates relevant information to regulators, financial analysts,
        and other external parties.



Component 8: Monitoring
                                                   • Management determines, through
Monitoring Best Practices                       ongoing monitoring activities or separate
                                                evaluations, or a combination, whether the
 Have senior management, which comprises       functioning of enterprise risk management
  the Risk Oversight Committee, meet monthly
                                                continues to be effective.
  to review reports from various risk areas
  across the company.
 Include regular progress reports and
                                                Ongoing Monitoring Activities
  comparisons to previous risk assessments so
  changes and refinements can be made.             • Monitoring activities are built into
                                                the entity's normal, recurring operations,
                                                performed in the ordinary course of
                                                running the business.

    •   They are performed on a real-time basis and react dynamically to changing
        conditions.
                                                                                        34
                          Amtrak Office of Inspector General
     Amtrak Corporate Governance: Implementing a Risk Management Framework
                 is Essential to Achieving Amtrak’s Strategic Goals
                     Report No. OIG-A-2012-007, March 30, 2012



Separate Evaluations

 •   Separate evaluations focus directly on enterprise risk management effectiveness
     and provide an opportunity to consider the continued effectiveness of the
     ongoing monitoring activities.

 •   The evaluator understands each of the entity activities and each enterprise risk
     management component being addressed.

 •   The evaluator analyzes enterprise risk management design, and the results of
     tests performed, against the backdrop of management's established standards,
     determining whether enterprise risk management provides reasonable assurance
     with respect to the stated objectives.

Reporting Deficiencies

 •   Deficiencies reported from both internal and external sources are carefully
     considered for their implications for enterprise risk management, and
     appropriate corrective actions are taken.

 •   All identified deficiencies that affect the entity's ability to develop and
     implement its strategy and to achieve its established objectives are reported to
     those positioned to take necessary action.

 •   Not only are reported transactions or events investigated and corrected, but
     potentially faulty underlying procedures also are reevaluated.

 •   Protocols are established to identify what information is needed at a particular
     level for effective decision-making.
                                                                                          35
                            Amtrak Office of Inspector General
       Amtrak Corporate Governance: Implementing a Risk Management Framework
                   is Essential to Achieving Amtrak’s Strategic Goals
                       Report No. OIG-A-2012-007, March 30, 2012




                                          Appendix III

             ENTERPRISE RISK MANAGEMENT RESOURSES

Web sites
 The Risk and Insurance Management              www.rims.org
 Society
 Committee of Sponsoring Organizations of       http://coso.org/
 the Treadway Commission (COSO)
 PricewaterhouseCoopers                         http://www.pwc.com/us/en/thought-
                                                leadership/risk.jhtml
 American Institute of Certified Public         http://www.aicpa.org/_catalogs/masterpage/Se
 Accountants (AICPA)                            arch.aspx?S=risk+management
 Institute of Internal Auditors (IIA)           http://www.theiia.org/guidance/standards-and-
                                                guidance/ippf/practice-guides/
 Protiviti                                      http://www.protiviti.com/en-
                                                US/Pages/default.aspx
 KPMG                                           http://www.kpmg.com/us/en/pages/default.asp
                                                x
 University of California                       http://www.ucop.edu/riskmgt/erm/dashboard.
                                                html
 National Oceanic and Atmospheric               http:www.NOAA.gov
 Administration
 British Columbia—Ministry of Finance           http:www.gov.bc.ca/fin



Publications
 Enterprise Risk Management—Integrated          COSO
 Framework (Executive Summary)
 Enterprise Risk Management—Integrated          COSO
 Framework (Application Techniques)
 Strengthening Enterprise Risk Management       COSO
 for Strategic Advantage
                                                                              36
                           Amtrak Office of Inspector General
      Amtrak Corporate Governance: Implementing a Risk Management Framework
                  is Essential to Achieving Amtrak’s Strategic Goals
                      Report No. OIG-A-2012-007, March 30, 2012



Embracing Enterprise Risk management,         COSO
Practical Approaches for Getting Started

Risk Assessment for Mid-Sized Companies       AICPA
A Unified Approach to Risk Management         AICPA
Effective Enterprise Risk Management          AICPA
Starts With A Conversation
Adding Value, Not Bureaucracy: Linking        AICPA
Governance, Enterprise Risk Management,
and Internal Controls
Board and Audit Committee Involvement in      AICPA
Risk Management Oversight
Seven Steps Toward a Proactive, Value-        AICPA
Added Enterprise Risk Management
Program
IPPF Practice Guide: Assessing the Adequacy   IIA
of Risk Management

Assessing the Adequacy of Risk                IIA
Management
Improving Board Risk Oversight Through        IIA Research Foundation
Best Practices
Enterprise Risk Management: Trends and        IIA Research Foundation
Emerging Practices
Global Best Practices                         PricewaterhouseCoopers
Business risk model                           PricewaterhouseCoopers
Ten Common Risk Management Failures           Protiviti
and How to Avoid Them
Risk Management: A Look Back and a Look       Protiviti
Forward
Profiles of Companies Building Effective      Protiviti
ERM Programs
                                                                                       37
                           Amtrak Office of Inspector General
      Amtrak Corporate Governance: Implementing a Risk Management Framework
                  is Essential to Achieving Amtrak’s Strategic Goals
                      Report No. OIG-A-2012-007, March 30, 2012



Enterprise risk oversight                    Chartered Institute of Management
                                             Accountants and AICPA research series
                                             September 2010

Implementing Enterprise-wide Risk            Trent Derr, Syntex Management Systems, Inc.
Reduction Across Operational and Financial
Processes
Managing Risk in Government: An              Dr. Karen Hardy
Introduction to Enterprise Risk
Management
A Board Perspective on Enterprise Risk       McKinsey & Company
Management
Risk Management Best Practices               Microsoft Corp.
Navigating Unchartered Waters—Best           GRC Daily
Practices for Managing Risks Across the
Enterprise
Best Practices in Risk Management: Private   Treasury Board of Canada
and Public Sectors Internationally
Implementing an Enterprise Risk              Lexis/Nexis
Management Evaluation
Overview of Enterprise Risk Management       Casualty Actuarial Society
                                                                        38
                     Amtrak Office of Inspector General
Amtrak Corporate Governance: Implementing a Risk Management Framework
            is Essential to Achieving Amtrak’s Strategic Goals
                Report No. OIG-A-2012-007, March 30, 2012




                            Appendix IV

 COMMENTS FROM THE CHAIRMAN OF AMTRAK’S
        BOARD OF DIRECTORS AND
      AMTRAK’S PRESIDENT AND CEO
                                                                               39
                           Amtrak Office of Inspector General
      Amtrak Corporate Governance: Implementing a Risk Management Framework
                  is Essential to Achieving Amtrak’s Strategic Goals
                      Report No. OIG-A-2012-007, March 30, 2012




                                      Appendix V

                              ABBREVIATIONS

ADA         Americans with Disabilities Act

AICPA       American Institute of Certified Public Accountants

CEO         Chief Executive Officer

COSO        Committee of Sponsoring Organizations of the Treadway Commission

ERM         Enterprise Risk Management

IIA         Institute of Internal Auditors

IT          Information Technology

OIG         Office of Inspector General
                                                                             40
                          Amtrak Office of Inspector General
     Amtrak Corporate Governance: Implementing a Risk Management Framework
                 is Essential to Achieving Amtrak’s Strategic Goals
                     Report No. OIG-A-2012-007, March 30, 2012




                                     Appendix VI

                            OIG TEAM MEMBERS

David R. Warren, Assistant Inspector General, Audits

Edward Stulginsky, Senior Director

Joseph Zammarella, Audit Manager

John Borelli, Consultant

William Dolan, Consultant

John Kalmar, Consultant

Kenneth Knouse, Consultant
                                                                                      41
                          Amtrak Office of Inspector General
     Amtrak Corporate Governance: Implementing a Risk Management Framework
                 is Essential to Achieving Amtrak’s Strategic Goals
                     Report No. OIG-A-2012-007, March 30, 2012




           OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission         Amtrak OIG’s mission is to
                             • conduct and supervise independent and objective
                               audits, inspections, evaluations, and investigations
                               relating to Amtrak programs and operations;
                             • promote economy, effectiveness, and efficiency within
                               Amtrak;
                             • prevent and detect fraud, waste, and abuse in Amtrak's
                               programs and operations;
                             • review security and safety policies and programs; and
                             • review and make recommendations regarding existing
                               and proposed legislation and regulations relating to
                               Amtrak's programs and operations.

Obtaining Copies of OIG Available at our website: www.amtrakoig.gov.
Reports and Testimony

To Report Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline
and Abuse               (you can remain anonymous):

                             Web:      www.amtrakoig.gov/hotline
                             Phone:    800-468-5469

Congressional and            E. Bret Coulson, Senior Director
Public Affairs               Congressional and Public Affairs
                             Mail:     Amtrak OIG
                                       10 G Street, N.E., 3W-300
                                       Washington, DC 20002
                             Phone:    202-906-4134
                             Email:    bret.coulson@amtrakoig.gov
